No. 20-1004
ROBERT COLLIER,
v.

Petitioner,

DALLAS COUNTY HOSPITAL DISTRICT, doing business as
Parkland Health & Hospital System,

Respondent.

CERTIFICATE OF COMPLIANCE
Pursuant to Supreme Court Rule 33.1(h), I certify
that the Motion For Leave To File Brief For Amicus
Curiae The Howard University School Of Law
Human And Civil Rights Clinic In Support Of
Petitioner contains 375 words and the brief contains
2,841 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
/s/ Edward Williams
Counsel of Record

